No. 20-633
================================================================================================================

In The

Supreme Court of the United States
---------------------------------♦--------------------------------BYRON DAVID SMITH,
Petitioner,
v.
JEFF TITUS, WARDEN,
MINNESOTA CORRECTIONAL FACILITY,
OAK PARK HEIGHTS,
Respondent.
---------------------------------♦--------------------------------On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Eighth Circuit
---------------------------------♦--------------------------------BRIEF IN OPPOSITION
---------------------------------♦--------------------------------KEITH ELLISON
Minnesota Attorney General
PETE ORPUT
Washington County Attorney
NICHOLAS A. HYDUKOVICH
Counsel of Record
Assistant Washington
County Attorney
15015 62nd Street North
Stillwater, MN 55082
(651) 430-6115
nicholas.hydukovich@
co.washington.mn.us

BRENT D. WARTNER
First Assistant Washington
County Attorney
(651) 430-6122
brent.wartner@
co.washington.mn.us

================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
QUESTION PRESENTED
Before Petitioner Smith’s murder trial began, the
trial court made a public pretrial ruling on an evidentiary issue raised by Smith. Immediately before opening statements, but before the jury was sworn, the trial
court briefly excluded the public from the courtroom
while it provided clarification on the parameters of its
order to counsel in a sidebar-like conference. The Minnesota Supreme Court made a factbound determination that this event was an administrative hearing and
not part of the trial proceedings for purposes of the
Sixth Amendment right to a public trial.
The question presented is whether the Eighth Circuit erred by concluding, under the highly deferential
standard of the Antiterrorism and Effective Death Penalty Act of 1996, that the Minnesota Supreme Court
did not unreasonably apply federal law as “clearly
established” by this Court, 28 U.S.C. § 2254(d)(1), by
holding that this brief, nonpublic proceeding, which
was held before the jury was sworn, that was administrative in nature, and which merely clarified the
parameters of a previous evidentiary ruling, did not violate Smith’s Sixth Amendment right to a public trial.

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED .....................................

i

TABLE OF AUTHORITIES ...................................

iv

STATEMENT OF THE CASE ................................

1

A. Smith murders Nicholas Brady and Haile
Kifer..............................................................

1

B.

The trial judge makes pretrial evidentiary
rulings regarding the admission of evidence
of prior burglaries at Smith’s home, and
Smith is ultimately convicted of murdering
Brady and Kifer ...........................................

3

The Minnesota Supreme Court affirms Smith’s
conviction on direct appeal ..........................

7

The federal district court denies Smith’s petition for a writ of habeas corpus, and the
Eighth Circuit affirms .................................

8

REASONS FOR DENYING THE PETITION .......

10

C.
D.

I.

The petition is a request for error correction
of a factbound state court decision under
habeas review on an issue with no split
among federal or state appellate courts...... 11

II. The Eighth Circuit did not err ....................
III.

14

Because this case arises on federal habeas
review, it is a poor vehicle for considering
the question presented, as phrased in the
petition ......................................................... 19

iii
TABLE OF CONTENTS—Continued
Page
A. AEDPA’s demanding standard for relief
makes this case a poor vehicle for review of the substantive question Smith
seeks to present because AEDPA precludes such a substantive review.......... 20
B. The uncertainty that Smith has any
substantial remedy for his claimed violation makes this case an even poorer
vehicle for review of the substantive
question Smith attempts to present ..... 21
CONCLUSION .......................................................

24

iv
TABLE OF AUTHORITIES
Page
FEDERAL CASES
Cullen v. Pinholster,
63 U.S. 170 (2011) ...................................................12
Harrington v. Richter,
562 U.S. 86 (2011) ............................................. 16, 17
Presley v. Georgia,
558 U.S. 209 (2010) ......................................... passim
Renico v. Lett,
559 U.S. 766 (2010) .................................................16
Rovinsky v. McKaskle,
722 F.2d 197 (5th Cir. 1984) ....................................11
United States v. Norris,
780 F.2d 1207 (5th Cir. 1986) ..................................11
Waller v. Georgia,
467 U.S. 39 (1984) ........................................... passim
Weaver v. Massachusetts,
137 S.Ct. 1899 (2017) .................................. 12, 21, 22
Williams v. Taylor,
529 U.S. 362 (2000) ..................................... 15, 16, 20
Woodford v. Visciotti,
537 U.S. 19 (2002) ...................................................16
Yarborough v. Alvardo,
541 U.S. 652 (2004) .................................................16

v
TABLE OF AUTHORITIES—Continued
Page
FEDERAL STATUTES
28 U.S.C. § 2254(d) ................................................ 10, 15
28 U.S.C. § 2254(d)(1) ..................................... 11, 15, 16
28 U.S.C. § 2254(e)(1) ....................................................6
STATE STATUTES
Minn. Stat. § 480A.06, subd. 1 .....................................7
SUPREME COURT RULES
Sup. Ct. R. 10(a) ..........................................................11
STATE RULES
Minn. R. Crim. P. 29.02, subd. 1(a) ...............................7

1
STATEMENT OF THE CASE
A. Smith murders Nicholas Brady and Haile Kifer.
Petitioner Byron Smith was convicted by a Morrison County, Minnesota jury of two counts of firstdegree premeditated murder for executing two teenagers,
Nicholas Brady and Haile Kifer, on Thanksgiving Day,
November 22, 2012. App. 76.
Smith’s home had been burglarized about a month
before he killed Brady and Kifer. Id. Smith believed his
neighbor and her parents, who were not Brady or Kifer,
had committed the burglary. Id. On the morning of the
murders, Smith was outside his home when he saw the
neighbor he suspected of committing the burglaries
drive by. App. 77.
Less than an hour after seeing his neighbor drive
by his home, Smith drove his vehicle away from his home
and parked several blocks away. Id. Smith walked home
and entered his home by walking through his back
yard rather than going through his front door, which
faced the street. Id.
About 15 minutes after arriving at his home,
Smith “went down to his basement and turned on a
digital audio recorder.” Id. Smith “sat down in an upholstered reading chair” with “a novel, a water bottle,
and some snack bars.” Id. Smith had a revolver on his
belt clip. Id. Smith’s chair faced the stairs that came
from the main floor to the basement. Id. Smith had a
loaded rifle “[s]teps away” from his chair. Id. Smith also

2
had a four-screen monitor showing surveillance video
from the outside of his house. Id.
As Smith waited in his basement, Smith made various comments that were captured on the digital audio
recorder he had activated. App. 77-78. Smith made
statements about needing to see a lawyer. App. 78.
Smith also said, “In your left eye.” Id.
After about a half-hour, Smith heard a window
break and then heard someone—who turned out to be
Brady—walking around in the house. App. 77-78.
Smith waited in his basement, with his loaded Mini 14
rifle and .22 caliber nine-shot revolver, until Brady began walking down the basement stairwell. App. 77. As
Brady walked down the stairs, Smith shot him several
times with the Mini 14 until Brady fell down. App. 78.
After Brady fell, Smith went up to him and shot
him in the head, saying to Brady, “You’re dead.” App.
78-79. Smith put Brady’s body on a plastic tarp and
dragged the tarped body out of sight into a basement
workshop. App. 79.
After trying to reach Brady on his cell phone, Kifer
entered the house and eventually walked down the
stairwell to the basement. Id. When Smith saw her, he
shot her with the Mini 14. Id. Kifer fell down the stairs
as Smith shot her multiple times. App. 79-80.
Smith dragged Kifer’s body into the workshop and
placed her next to Brady’s body. App. 79. Smith then
heard Kifer gasp for air, so he shot her a sixth and final
time. App. 80.

3
After approximately 30 hours passed, Smith called
a neighbor and asked the neighbor to find Smith a lawyer. App. 82. After Smith later told the neighbor that
Smith had “solved the break-ins in the neighborhood,”
Smith asked the neighbor to call police. Id.
B. The trial judge makes pretrial evidentiary
rulings regarding the admission of evidence
of prior burglaries at Smith’s home, and
Smith is ultimately convicted of murdering
Brady and Kifer.
A grand jury indicted Smith on two counts of firstdegree premeditated murder. App. 86. Smith’s main
defense at trial was that he used reasonable force in
defense of himself and his home. Id.
Public pretrial proceedings held on Thursday,
April 17, 2014, included motions in limine on the extent to which Smith could offer evidence of previous
burglaries of his house. App. 100-101. This hearing was
in preparation for Monday, April 21, 2014, the first day
of trial, where arguments and evidence would be presented to the jury. App. 101.
On the first day of trial, the court began an on-therecord discussion of a need for a nonpublic hearing. Id.
The Minnesota Supreme Court described the facts underlying the nonpublic hearing as follows:
The courtroom closure occurred at the beginning of trial on April 21, 2014, shortly after
the case was called but before the jury took its

4
final oath and began to hear argument and
testimony.
The closure was the sequel to a pretrial hearing on April 17, 2014, which was open to the
public. That hearing was on motions in limine,
including the issue of the extent to which
Smith could offer evidence of the previous
burglaries of his house. Smith argued that he
should be able to call Brady’s mother and
Brady’s friends, C.K. and J.K., as witnesses to
testify to Brady’s involvement in the previous
burglaries. Defense counsel discussed Brady’s
alleged co-participants by name at the hearing, so those names were in the public record.
On Monday, April 21, 2014, the day the parties
would present opening statements and witnesses to the jury, the deputy court administrator called the case. The court then closed
the courtroom to all except the attorneys, the
defendant, and court staff. The court said: “We
have just cleared the courtroom just for a
quick moment from the spectator gallery.” Defense counsel then stated: “Your Honor, this is
a—I thought about the court’s suggestion, and
I would ask the court to reconsider.” Defense
counsel asked that the public be allowed to be
present, including media, because “[t]o not allow that would infringe upon the freedom of
the public to be present as well as the free
press. [Smith] has that right to a public trial.”
The district court proceeded to discuss the
“pretrial ruling of the court” and advised the
parties and Smith that the court had ruled to

5
exclude some of the evidence of Brady’s prior
bad acts. As part of the ruling, the court explained that defense counsel could not “disclose
the names of [J.K., C.K.] or Brady involved in
prior burglaries before November 22, 2012.”
The court stated that the evidence was inadmissible because Smith did not know the
identity of those who broke into his home before Thanksgiving. The court then explained
its reasoning for closing the courtroom:
And for that reason—that was the
reason that the court is not allowing
the press in for this ruling, because
otherwise it could be printed, and indeed, while the jurors hopefully will
follow the admonition not to read or
hear anything in the press and TV
and such in the meantime while this
case is pending, certainly the media
would publish and print the substance of the court’s pretrial ruling,
and then of course it runs the risk of
getting to the jury if for some reason
they don’t adhere to their oath.
Defense counsel then clarified whether he
could call C.K. as a witness and asked: “Your
Honor, if I—are we done with the record?”
Counsel and the court had a discussion off the
record. Then the courtroom was opened. The
proceeding in the closed courtroom constituted four pages out of the 1899–page trial
transcript.

6
Immediately after the closed proceeding, at
10:00 a.m., the judge filed a written order on
the motion in limine heard on April 17 and
then discussed briefly in the closed courtroom.
The order, publicly available, ruled that evidence of prior bad acts by Brady or Kifer, of
which Smith was not aware at the time of the
shooting, would be inadmissible at trial. The
order explained that “insofar as the [evidence
that Smith was the victim of prior burglaries
occurring before the shooting, that forcible entry was made, and that weapons were taken
that were not recovered at the time of the
shooting] may be received through the testimony of Deputy Luberts or other law enforcement agents, there will be no need to seek its
admission through more prejudicial means
(i.e., through the testimony of Brady’s mother
or of a perpetrator of the prior break-ins).” The
order did not name J.K. or C.K., the alleged coperpetrators of the prior burglaries. At 10:03
a.m., the jury entered the courtroom to be
sworn and to hear opening statements.
App. 100-103.1
The parties then presented evidence to the jury,
and at the close of trial, the judge instructed the jury
that the government had the burden to prove beyond a
reasonable doubt that Smith did not use reasonable
force. App. 86. The jury returned a guilty verdict on all
counts of murder. Id. The trial court convicted Smith of
1

The facts of the case are not in dispute and, therefore, under AEDPA, “a determination of a factual issue made by a State
court shall be presumed to be correct.” 28 U.S.C. § 2254(e)(1).

7
the two counts of first-degree premeditated murder
and sentenced him to two concurrent life sentences
without the possibility of release. Id.
C. The Minnesota Supreme Court affirms Smith’s
conviction on direct appeal.
Smith filed a direct appeal to the Minnesota Supreme Court.2 App. 76. One of the issues Smith raised
on appeal was the claim that the trial court erred when
it briefly closed the courtroom to spectators and the
press after voir dire but before the jury took its final
oath. App. 100. The Minnesota Supreme Court unanimously affirmed Smith’s convictions. App. 123, 138-139.
All but one justice of the Minnesota Supreme
Court concluded the closure did not implicate Smith’s
Sixth Amendment right because the closure was administrative in nature. App. 103-109. The majority opinion exhaustively analyzed decisions from this Court,
the federal circuits, and state appellate courts in determining there was no Sixth Amendment violation. App.
103-108.
The majority applied the limited precedents of this
Court, as well as the decisions of many other courts, to
the particular facts before it and determined no constitutional violation occurred. App. 103-109. The majority
concluded that the issue discussed during the hearing
2

Appeals from first-degree murder convictions in Minnesota
are filed directly with the Minnesota Supreme Court rather than
the Minnesota Court of Appeals. See Minn. Stat. § 480A.06, subd.
1; Minn. R. Crim. P. 29.02, subd. 1(a).

8
at issue “was an issue of evidentiary boundaries, similar to what would ordinarily and regularly be discussed in chambers or at a sidebar conference—on the
record, but outside the hearing of the public.” App. 109.
The Minnesota Supreme Court further reasoned, “The
discussion took only minutes, it was transcribed, and
it consumed only two-tenths of one percent of the trial
transcript. Smith received a public trial.” Id.
Justice Stras filed a concurring opinion. App. 123139. Justice Stras discussed the history of the right to
a public trial and canvassed the decisions of the federal
circuits and state appellate courts on the question of
whether “a pretrial evidentiary ruling constitutes a
part of the ‘trial’ to which the public-trial right attaches.” App. 123-124, 135. Justice Stras concluded
that because the “trial-like aspects of the proceedings”
occurred in open court, the discussion of “the scope of
the court’s written order” in a closed proceeding did not
violate Smith’s right to a public trial. App. 138-139.
D. The federal district court denies Smith’s petition for a writ of habeas corpus, and the
Eighth Circuit affirms.
After losing at the Minnesota Supreme Court,
Smith filed a petition for a writ of habeas corpus in the
United States District Court for the District of Minnesota. In his habeas petition, Smith challenged the Minnesota Supreme Court’s factual determination that the
closure was administrative in nature and that the factors set forth in Waller v. Georgia, 467 U.S. 39 (1984),

9
did not apply. App. 29. Smith argued that in failing to
apply Waller, the Minnesota Supreme Court decision
was contrary to, and involved an unreasonable application of, clearly established federal law. App. 29, 50.
Both the magistrate judge and the district court
determined that under the highly deferential Antiterrorism and Effective Death Penalty Act of 1996
(AEDPA) standard, Smith was not entitled to relief.
App. 31, 71. The district court granted a certificate of
appealability, App. 72, and Smith appealed to the
Eighth Circuit Court of Appeals.
The Eighth Circuit, applying the principles of
AEDPA, affirmed the federal district court’s decision
denying habeas relief. App. 2. At the Eighth Circuit,
Smith argued that his claim met the demanding
AEDPA standard for relief because the Minnesota Supreme Court’s decision was contrary to, and involved
an unreasonable application of, this Court’s decisions
in Waller and Presley v. Georgia, 558 U.S. 209 (2010)
(per curiam). App. 7.
The Eighth Circuit concluded that Smith’s claim
did not meet AEDPA’s demanding standard for habeas
relief. App. 11. First, the Eighth Circuit found that the
Minnesota Supreme Court’s conclusion was not contrary to either Waller or Presley because neither decision addressed whether a defendant enjoys a Sixth
Amendment right to public “administrative” proceedings of the type involved in this case. App. 8-10. Second,
the Eighth Circuit held that the Minnesota Supreme
Court did not unreasonably apply Waller and Presley

10
in this case because it is an open question whether a
defendant’s right to a public trial encompasses the sort
of nonpublic proceeding at issue here. App. 10. The
Eighth Circuit observed that “fairminded jurists could
disagree” with Smith’s argument “for extending Waller
and Presley to cover the episode in this case.” App. 11.
The Eighth Circuit therefore affirmed the denial of habeas relief. Id. The Eighth Circuit later denied Smith’s
petition for rehearing en banc. App. 140.
Smith filed a petition for writ of certiorari challenging the judgment of the Eighth Circuit Court of
Appeals, and this Court directed Respondent to file a
response to the petition.
---------------------------------♦---------------------------------

REASONS FOR DENYING THE PETITION
This Court should deny certiorari for three reasons. First, there is no circuit split. This petition is a
request for error correction of a properly decided state
court decision. Second, the Eighth Circuit Court of Appeals properly applied this Court’s settled AEDPA jurisprudence to the unique facts of this case. Third,
because this case arises on federal habeas review, it is
a poor vehicle for considering the question presented
as phrased in the petition.
AEDPA bars a petitioner from raising a claim adjudicated on the merits in state court, with two exceptions. See 28 U.S.C. § 2254(d). Smith relies on one of
these exceptions, which allows for review of a claim if
the state court adjudication “resulted in a decision that

11
was contrary to, or involved an unreasonable application of, clearly established Federal law, as determined
by the Supreme Court of the United States.” 28 U.S.C.
§ 2254(d)(1).3
Smith seeks to extend this Court’s clearly established law in Waller and Presley to encompass the very
different facts of this case, which is exactly what the
strict standard of AEDPA prevents. Granting review in
this case would inevitably lead to an incomplete consideration of the substantive question Smith seeks to
present. As the Eighth Circuit, the district court, and
the magistrate judge all concluded, the deferential
standard of AEDPA precludes expanding the law and
applying it to Smith’s case.
I.

The petition is a request for error correction of a factbound state court decision under habeas review on an issue with no split
among federal or state appellate courts.

The petition is meritless and does not identify a
conflict among the lower courts on an important legal
issue.4 Rather, Smith asks that the petition be granted

3

Smith’s sole claim is under section 2254(d)(1). See Pet. 1920; App. 45 n.2.
4
Smith does contend that two decisions of the Fifth Circuit
are in conflict with each other. Pet. 17 (comparing United States
v. Norris, 780 F.2d 1207 (5th Cir. 1986), with Rovinsky v. McKaskle,
722 F.2d 197, 198-99 (5th Cir. 1984). But this Court’s rules favor
review of “a decision in conflict with the decision of another United
States court of appeals on the same important matter.” Sup. Ct.

12
in order to correct a factual finding by the Minnesota
Supreme Court about the type of hearing at issue—
that the event was an administrative proceeding. App.
105. The Minnesota Supreme Court recognized the
need to follow the four-factor test this Court adopted
in Waller to determine whether a district court’s closure of a courtroom was proper. Id. But the Minnesota
Supreme Court determined that because no closure
occurred for Sixth Amendment purposes, the Waller
analysis did not apply. Id.
In Waller, this Court held that a criminal defendant’s Sixth Amendment right to a public trial applied
to a suppression hearing conducted prior to the
presentation of evidence to the jury. 467 U.S. at 43. The
only other Supreme Court case on a criminal defendant’s public trial right existing at the time of the Minnesota Supreme Court’s decision was Presley.5 In
Presley, this Court held that a criminal defendant’s
Sixth Amendment right to a public trial was violated
when the trial court excluded the public from the
voir dire of prospective jurors and failed to consider
R. 10(a) (emphasis added). An intra-circuit split can, if it exists,
be resolved by that circuit sitting en banc.
5
Over a year after the Minnesota Supreme Court affirmed
Smith’s convictions, this Court decided Weaver v. Massachusetts,
which discussed the right to a public trial in the context of an ineffective assistance of counsel claim. 137 S.Ct. 1899, 1907 (2017).
Because Weaver was decided after the Minnesota Supreme Court’s
decision in Smith’s case, Weaver is not part of the analysis here.
See Cullen v. Pinholster, 563 U.S. 170, 182 (2011) (“State-court
decisions are measured against this Court’s precedents as of the
time the state court renders its decision.”) (quotation omitted).

13
reasonable alternatives to closure. 558 U.S. at 213-14.
Both cases require application of a four-factor test
when the public is excluded from a stage of a criminal
trial. Id. at 213; Waller, 467 U.S. at 45.
The Minnesota Supreme Court properly analyzed
the Waller and Presley decisions. App. 105-107. The
Minnesota Supreme Court noted that the specific holdings of Waller and Presley applied the public trial right
to a suppression hearing and jury voir dire, respectively. App. 104. In the absence of Supreme Court precedent in the very different context presented by this
case, the Minnesota Supreme Court relied upon decisions from the federal circuits and state appellate
courts to conclude that the public trial right does not
apply to an administrative, sidebar-like discussion of
an evidentiary issue. App. 106-108.
The Minnesota Supreme Court viewed the proceeding at issue in this case as a nonpublic administrative hearing between the court and counsel that did
not contain any trial-like aspects. App. 108-109. “This
was an issue of evidentiary boundaries, similar to what
would ordinarily and regularly be discussed in chambers or at a sidebar conference—on the record, but outside the hearing of the public.” App. 109.
In this fact-specific and unusual situation, the
Minnesota Supreme Court did not need to apply the
Waller factors because this unusual situation was not
trial-like in nature. The Minnesota Supreme Court
therefore relied on prior Minnesota decisions, as well
as decisions from federal circuits and other states, in

14
concluding that such closed non-trial administrative
proceedings were permissible so long as a record is
made and is available to the public. App. 108.
Smith asks this Court to reject the Minnesota Supreme Court’s factual finding that the trial court’s clarification of the contours of an evidentiary ruling was
an administrative proceeding, not a trial proceeding.
Notwithstanding the deferential standard of AEDPA,
Smith asks this Court to make a legal finding that such
a closure violates Smith’s Sixth Amendment public
trial right. Neither request is justified.
At best for Smith, the question of whether the
Sixth Amendment’s public trial guarantee applies to
an administrative, sidebar-like ruling on an evidentiary issue is a question that deserves a full airing of
the issues. But the restraints of AEDPA preclude a full
presentation of the novel rule Smith asks this Court to
adopt. Instead, AEDPA’s deferential standard compelled the Eighth Circuit’s affirmance of the denial of
habeas relief. There is no reason for this Court to review the Eighth Circuit’s decision.
II.

The Eighth Circuit did not err.

While Smith does not allege any relevant conflicts
of federal courts of appeals, he claims that review is
warranted because the Eighth Circuit decision declined to extend the public trial right from what this
Court has previously recognized to the nonpublic proceedings at issue here. Smith is asking this court to
set aside the required AEDPA deference and extend

15
the rulings of Waller and Presley to cover the situation
in this case—public trial rights in administrative,
sidebar-like hearings. The Eighth Circuit declined to
extend this Court’s precedent because it was not permitted to do so under the deferential AEDPA standard.
The Eighth Circuit properly determined that the
demanding standard of AEDPA bars habeas relief in
this case. App. 6-7. AEDPA governs review of federal
habeas proceedings and bars a prisoner from relitigation of any claim adjudicated on the merits in state
court, subject to two exceptions. See 28 U.S.C. § 2254(d).
The exception Smith relies upon allows for review of a
claim if the state court adjudication “resulted in a decision that was contrary to, or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United
States.” 28 U.S.C. § 2254(d)(1).
A state court’s decision is contrary to clearly established federal law if it “applies a rule that contradicts
the governing law set forth in [this Court’s] cases” or if
it “confronts a set of facts that are materially indistinguishable from a decision of this Court and nevertheless arrives at a result different from our precedent.”
Williams v. Taylor, 529 U.S. 362, 405-06 (2000).6
Under AEDPA’s “unreasonable application” clause,
a federal habeas court may grant the writ if the state
court identifies the correct legal principle but unreasonably applies that principle to the facts of the
6

Smith does not argue that his case involves facts materially
indistinguishable from a decision of this Court. App. 46 n.4.

16
petitioner’s case. Id. at 413. The unreasonable application clause requires a state court decision to be more
than incorrect or erroneous. Id. at 410-412. A federal
habeas court “may not issue the writ simply because
that court concludes in its independent judgment that
the state-court decision applied” Supreme Court precedent incorrectly. Woodford v. Visciotti, 537 U.S. 19, 2425 (2002) (per curiam). AEDPA places the burden on
the petitioner to demonstrate that the state court applied Supreme Court precedent to the facts of their
case “in an objectively unreasonable manner.” Id. at 25.
Smith’s claim of error does not satisfy either of
the clauses of the § 2254(d)(1) exception because the
Minnesota Supreme Court’s conclusions are neither
inconsistent with prior Supreme Court precedent
nor objectively unreasonable. Whether a criminal
defendant’s right to a public trial under the Sixth
Amendment attaches to a nonpublic hearing on administrative matters is an issue that has never been
decided by this Court. Under the highly deferential
AEDPA standard, the Eighth Circuit properly affirmed
the denial of habeas relief.
AEDPA’s “highly deferential standard for evaluating state-court rulings” requires that state court decisions “be given the benefit of the doubt.” Renico v. Lett,
559 U.S. 766, 773 (2010) (citations omitted). “[A] state
court’s determination that a claim lacks merit precludes federal habeas relief so long as ‘fairminded jurists could disagree’ on the correctness of the state
court’s decision.” Harrington v. Richter, 562 U.S. 86,
101 (2011) (quoting Yarborough v. Alvardo, 541 U.S.

17
652, 664 (2004)). In order to obtain habeas relief in federal court, a petitioner must show that the state court
decision “was so lacking in justification that there was
an error well understood and comprehended in existing law beyond any possibility for fairminded disagreement.” Id. at 102.
Smith’s sole challenge to the Eighth Circuit’s decision is the claim that the Minnesota Supreme Court’s
decision contravened or unreasonably applied clearly
established federal law when it found that no Sixth
Amendment closure occurred. Smith does not reconcile
the Minnesota Supreme Court’s factual determination
that the nature of the proceeding was administrative,
App. 108, with his assertion that it was a trial proceeding.
As the Eighth Circuit noted, at the time of the
Minnesota Supreme Court’s decision, the two leading
decisions from this Court regarding a criminal defendant’s right to a public trial under the Sixth Amendment
were Waller and Presley. App. 7-8. Though Smith’s
claim correctly cites AEDPA’s demanding standard,
Smith fails to take the next step to analyze and apply
it to the facts of this case. Smith fails to explain how
the Waller and Presley decisions apply “squarely and
directly” to the analysis in this case or how the Minnesota Supreme Court’s holding is contrary to Waller and
Presley. Smith is at a loss to do so because the Waller
rule does not provide sufficient guidance for resolving
his case, and a straightforward application of the Waller criteria does not work when the issue before the
court is a nonpublic administrative hearing. The lack

18
of guidance in Supreme Court precedent in this area is
determinative. This is precisely the type of case that
merits strict adherence to the deferential standard of
AEDPA.
Smith contends that, “[t]aken to its logical imperative,” the Eighth Circuit’s decision means that the
only “clearly established” portions of a trial subject to
the Sixth Amendment’s right to a public trial are suppression hearings and jury voir dire proceedings. Pet.
16. But that argument ignores the primary role of direct appeals in the review of criminal convictions. In
its decision in Smith’s case, for example, the Minnesota
Supreme Court cited its own prior decision for the
proposition that the right to a public trial “applies to
all phases of trial.” App. 104. The Minnesota Supreme
Court went on to hold that the brief administrative
hearing at issue was simply not subject to the Sixth
Amendment right to a public trial. App. 108-109.
Thus, for any type of hearing that is properly considered a “phase[ ] of trial,” App. 104, a defendant deprived of the right to a public trial has a remedy on
direct appeal in Minnesota. Smith had a direct appeal
and did not seek a writ of certiorari after losing on that
direct appeal. Instead, Smith has chosen to seek federal review under the demanding standard of AEDPA.
Smith has therefore placed himself in a less favorable
position than Waller and Presley, who sought certiorari
from their direct appeals, rather than the denial of habeas relief. See Waller, 467 U.S. at 43; Presley, 558 U.S.
at 209.

19
This Court has not spoken on the public trial right
and its application to nonpublic administrative hearings, and the Court’s closest cases, Waller and Presley,
are distinguishable on their facts. Neither Waller nor
Presley expressly answers the question Petitioner
seeks to have this Court answer—whether Smith’s
Sixth Amendment right to a public trial extends to an
administrative hearing. Because the Minnesota Supreme Court decision upholding Smith’s conviction is
not contrary to clearly established federal law, the
Eighth Circuit properly held that Smith is not entitled
to habeas relief.
III. Because this case arises on federal habeas
review, it is a poor vehicle for considering
the question presented, as phrased in the
petition.
In his petition, Smith fails to address why this
Court should take the exceptional step of granting certiorari review in a fact-specific state case subject to the
deferential standard of AEDPA. Instead, without identifying any compelling basis for such a review, Smith
asks this Court to disrupt an important area of federal
law by ignoring the significant deference federal courts
apply under AEDPA to state court decisions that are
not in conflict with this Court’s precedent.

20
A. AEDPA’s demanding standard for relief
makes this case a poor vehicle for review
of the substantive question Smith seeks
to present because AEDPA precludes such
a substantive review.
Smith’s claim that the Eighth Circuit decision
causes the AEDPA standard to “swallow the Sixth
Amendment” public trial right, Pet. 20, is factually and
legally erroneous. Contrary to Petitioner’s assertions,
the Eighth Circuit’s decision to deny the habeas petition under the deferential standard of AEDPA does not
stand for the proposition that public trial rights are
limited to pretrial suppression and jury voir dire proceedings. Rather, the rule that the Minnesota Supreme
Court applied in this case was that the Sixth Amendment public trial right does not apply to administrative proceedings. App. 108.
The Eighth Circuit therefore reviewed whether
the Minnesota Supreme Court’s finding that a public
trial right does not attach to administrative proceedings was contrary to, or involved an unreasonable application of, clearly established federal law. The Eighth
Circuit found that this Court’s precedent did not foreclose the Minnesota Supreme Court’s rule. The Eighth
Circuit’s decision is a recognition that under AEDPA,
federal courts owe substantial deference to the legal
and factual findings of the state courts. See Taylor, 529
U.S. at 402-405.
By its design, AEDPA makes it difficult for petitioners to overturn the decisions of state appellate

21
courts. AEDPA’s demanding standard means that factspecific decisions by state appellate courts will rarely
be overturned by federal courts. This case is not the
rare conviction that should be overturned. AEDPA’s
deferential standard prevents the full vetting of the
question of whether and how the public trial right applies to administrative proceedings before a jury is
sworn. This case therefore does not squarely present
the question of whether the Sixth Amendment right to
a public trial applies to a sidebar-like administrative
hearing on an evidentiary issue, meaning this case is
a poor vehicle to address that question.
B. The uncertainty that Smith has any substantial remedy for his claimed violation
makes this case an even poorer vehicle
for review of the substantive question
Smith attempts to present.
The remedy for a violation of the Sixth Amendment right to a public trial is not always a new trial.
See Waller, 467 U.S. at 50. In fashioning a remedy for
a violation of the public trial right, a court must consider: (1) that the remedy should be appropriate to the
violation; (2) that the remedy should serve the public
interest; and (3) that the remedy should avoid a windfall for the defendant. Id.7
7

Though Weaver is not a part of the analysis because it was
decided after Smith’s direct appeal, it does not appear to change
the analysis of the difficult question of a remedy for a violation of
the public trial right. In Weaver, this Court noted that it had not
ordered a new trial in Waller despite the structural nature of the

22
The federal district court briefly discussed the
question of an appropriate remedy if it granted habeas
relief. App. 69-70 (citing Waller, 467 U.S. at 50). The
district court did not answer the question because
Smith was not entitled to federal habeas relief. App. 70.
But the court “seriously doubt[ed] that any remedy it
could craft would be appropriate to the violation and
not result in a windfall for Smith.” Id.
The district court’s doubt about an appropriate
remedy further demonstrates that this case is a poor
vehicle for review of the substantive issue as presented
in the petition. Even if this Court were to grant review
and reverse the denial of habeas relief, the relief to
which Smith would be entitled is far from clear. Smith
might well be entitled to nothing more than the state
trial court restating the contours of its evidentiary ruling in public rather than in private and then deciding
whether the evidentiary ruling would have been any
different as a result of making the ruling in public.
In Waller, this Court remanded the case to the
state trial court to hold a new suppression hearing in
public. 467 U.S. at 50. This Court held that Waller was
entitled to a new trial only if the “new, public suppression hearing result[ed] in the suppression of material
evidence not suppressed at the first trial, or in some
violation of the right to a public trial. 137 S.Ct. at 1908-09. This
Court observed that “while the public-trial right is important for
fundamental reasons, in some cases an unlawful closure might
take place and yet the trial still will be fundamentally fair from
the defendant’s standpoint.” Id. at 1910. Even if Weaver did apply,
it would not affect the analysis.

23
other material change in the positions of the parties.”
Id.
In this case, the nonpublic hearing did not even
involve arguments by counsel, much less the presentation of testimony. The nonpublic hearing was merely
the announcement by the judge of the contours of a
previous, publicly-announced evidentiary ruling. Even
if this Court were to grant review and reverse, it is far
from clear that Smith has a remedy likely to result in
anything other than the ultimate affirmance of his conviction. The apparent lack of a substantial remedy
makes this case an even poorer vehicle for review of
the substantive issue Smith attempts to present.
Petitioner asks this Court to expand the Sixth
Amendment right to a public trial despite the restraints of AEDPA-compelled deference to state appellate courts. Under AEDPA, this Court would have
no opportunity to expand the Sixth Amendment
right. And even if the Court did expand upon that
right, it is far from clear that Smith would gain any
substantial relief. This case therefore presents a poor
vehicle for review of the substantive question Smith
seeks to present.
---------------------------------♦---------------------------------

24
CONCLUSION
For the foregoing reasons, the petition for writ of
certiorari should be denied.
Respectfully submitted,
KEITH ELLISON
Minnesota Attorney General
PETE ORPUT
Washington County Attorney
NICHOLAS A. HYDUKOVICH
Counsel of Record
Assistant Washington County Attorney
15015 62nd Street North
Stillwater, MN 55082
BRENT D. WARTNER
First Assistant Washington County Attorney
Counsel for Respondent

